PROOF OF SERVICE.
I, Stan Atkinson, am a resident of the County of Monterey, State of
California. I am over the age of 18 years, and I am not a party to this action.
My address is P. O. Box 4019, Monterey, California.
On November 2, 2020, I served the foregoing copies of PETITION
FOR WRIT OF CERTIORARI on the interested parties in this action by
placing the following true copies, enclosed in a sealed envelope addressed
as follows:
ROBERT J. GANDY
SEVERSON & WERSON
19100 VON KARMAN AV., #700
IRVINE, CA., 92612
DIANE P. CRAGG
SEVERSON & WERSON
1 EMBARCADERO CENTER, #2600
SAN FRANCISCO, CA., 94111
On the above date, I delivered such papers via United States Post
Office to the addressees at San Bernardino, California.
Under the penalty of perjury, I declare that the foregoing is true and
correct, and that this declaration was executed on November 2, 2020, at San
Bernardino, California.

Declarant.

